COCKLE

2311 Douglas Street al Bri E-Mail Address:
Omaha, Nebraska 68102-1214 L € 8 2 wae is contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.

AARON MINER AND DENNIS LAURANCE,
Petitioners,

Vv.
STEVEN L. PICATTI,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of January, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
RICHARD H. SEAMON ERICA JEANNINE WHITE
1297 Highland Drive Ada County Deputy
Moscow, Idaho 83843 Prosecuting Attorney

Counsel of Record
JAN M. BENNETTS
Ada County

Prosecuting Attorney
200 W. Front Street, Room 3191
Boise, Idaho 83702
Telephone: (208) 287-7700
Email: ewhite@adacounty.id.gov
Counsel for Petitioners

RECEIVED
JAN 10 2020
SPER

FFICE
ESS totes
PATRICIA BILLOTTE

aon 2 EC Ellie Qudiw-h, Chl

    

Subscribed and sworn to before me this 8th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 
   

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38918
SERVICE LIST

Bruce S. Bistline

Jason R.N. Monteleone

Johnson & Monteleone, L.L.P
350 N. Ninth Street

Suite 500

Boise, Idaho 83702
bruce@treasurevalleylawyers.com
(208) 331-2100

Counsel for Respondent Steven L. Picatti
